OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/UGANDA’S 

MICROFINANCE ACTIVITIES 

AUDIT REPORT NO. 4-617-07-010-P
August 30, 2007




PRETORIA, SOUTH AFRICA

Office of Inspector General


August 30, 2007

MEMORANDUM

TO:                  USAID/Uganda, Acting Mission Director, Deborah Grieser

FROM:                Regional Inspector General/Pretoria, Nathan S. Lokos /s/

SUBJECT:             Audit of USAID/Uganda’s Microfinance Activities (Report No. 4-617-07-010-P)

This memorandum transmits the Office of Inspector General’s report on the subject audit. In
finalizing this report, we considered management comments on the draft report and have
included those comments in their entirety in Appendix II.

The report includes three recommendations to strengthen USAID/Uganda’s management of its
microfinance activities. In responding to the draft report, the Mission concurred with all three
recommendations. In the case of Recommendation Nos. 1 and 2, actions taken by the Mission
are sufficient to achieve final action. For Recommendation No. 3, a management decision has
not been reached because the Mission has not indicated how it will communicate the need to
properly document site visits to its staff. Please provide my office with written notice, within 30
days of the date of this memorandum, on additional information on actions planned or taken to
implement Recommendation No. 3.

I sincerely appreciate the cooperation and courtesy extended to my staff during this audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objectives ................................................................................................................ 4


Audit Findings ................................................................................................................. 5 


Did USAID/Uganda implement its microenterprise activities 

efficiently? ......................................................................................................................... 5 


Did USAID/Uganda microenterprise activities achieve 

planned results?................................................................................................................ 6


     Data Quality Assessment Report Needs 

     to Be Finalized ............................................................................................................ 8 


     Clarified Definitions Needed for 

     Indicators................................................................................................................... 10


     Site Visits to Financial Institutions Are 

     Not Being Documented ............................................................................................. 11 


Evaluation of Management Comments ....................................................................... 13 


Appendix I – Scope and Methodology ........................................................................ 14 


Appendix II – Management Comments ....................................................................... 16 


Appendix III – Selected Key Indictors for Fiscal Year (FY) 2006 .............................. 19 

SUMMARY OF RESULTS

The Regional Inspector General/Pretoria conducted this audit as part of a series of audits of
USAID’s microfinance activities conducted by the Office of Inspector General. The
objectives of this audit were to determine whether (1) USAID/Uganda implemented
microenterprise activities efficiently, and (2) USAID/Uganda microenterprise activities
achieved planned results (see page 4).

The audit was not able to determine whether USAID/Uganda’s microenterprise activities
were being implemented efficiently. Because of the short-term nature of activities being
implemented (durations of less than 1 year), quantifiable measures of efficiency were not
available. However, the microenterprise activities were being implemented in a manner to
achieve efficiency. The Mission’s microenterprise activities include both business
development activities and financial activities. This audit focused on the financial activities
that were conducted in fiscal year 2006. These activities were implemented to increase
access to financial services in rural communities in Uganda. The activities reflected
outreach efforts to a diverse pool consisting of (1) financial institution subpartners both
large and small, (2) the donor community, and (3) the Ugandan government. These efforts
not only addressed the needs of rural Uganda and its poor but also complemented the
Mission’s objective of “Expanded Sustainable Economic Opportunities for Rural Sector
Growth” (see pages 5 and 6).

The audit team was unable to determine whether USAID/Uganda’s microenterprise
activities achieved planned results because of problems identified with definitions of key
program indicators. For three of the four program indicators reviewed, the indicator
definitions used in the Mission’s Performance Management Plan (PMP) differed from the
definitions used by the implementing partner in reporting data to USAID. Because the
definitions used by the subpartners were broader than those in the Mission’s PMP,
reported results were overstated compared with the results that should have been
reported using the PMP definitions.

USAID/Uganda reported meeting three of four targets for key financial indicators in fiscal
year 2006 under the Rural Savings Promotion and Enhancement of Enterprise
Development Program. These indicators were developed from microenterprise activities
as well as rural financial sector activities. USAID/Uganda’s assistance resulted in
improved operations for microfinance institutions (see pages 6 to 8).

The report contains three recommendations to help USAID/Uganda strengthen its
management of microfinance activities. These include recommendations to address the
need to (1) finalize the Mission’s data quality assessment, (2) clarify the definitions for three
key indicators, and (3) document site visits to subpartner financial institutions. The Mission
has concurred with all three recommendations in its written response to the draft report.
Due to actions taken by the Mission, final action has been achieved for Recommendation
Nos. 1 and 2. For Recommendation No. 3, the Mission has not indicated how it will
communicate the need to properly document site visits to its staff. Thus, no management
decision has been reached on this recommendation (see pages 9, 11, and 12).




                                                                                               1
BACKGROUND

USAID provides assistance to microenterprises in the areas of financial services, enterprise
development, and enabling environment. USAID’s Microenterprise Results Reporting:
Annual Report to Congress Fiscal Year 2005 stated that—

        Financial services and enterprise support are critical for poor households
        and businesses, enabling them to respond to new economic opportunities,
        build household assets, or cope with emergencies and crises.
        Improvements to the enabling environment allow micro-entrepreneurs to
        participate in markets from which they have been excluded, increase their
        earnings and realize the benefits of international trade.

USAID/Uganda has several microenterprise activities being funded under the Mission’s
Strategic Objective (SO) 7 Team “Expanded Sustainable Economic Opportunities for Rural
Sector Growth.” In fiscal year (FY) 2006, $2.5 million was obligated for microenterprise
financial activities through the Rural Savings Promotion and Enhancement of Enterprise
Development (Rural SPEED) Program. The objective of Rural SPEED is to deepen and
strengthen Uganda’s financial sector in response to rural sector demand for financial
services. This program is designed to meet the needs of micro, small, and medium
enterprises and is being carried out under SO7’s intermediate result, “Rural Financial
Services System Strengthened.”1

The performance of rural financial institutions in Uganda has historically been affected by
several challenges. These include poor leadership, inefficient management, low
membership and savings, lack of funds for loans, poor portfolio quality, and a lack of
financial sustainability. As a result of these problems, growth of rural finance has suffered.
In response, Rural SPEED’s FY 2006 activities were carried out through grants (on a cost-
share basis) made to subpartner financial organizations that ranged from tier I (commercial
banks) to tier IV (unlicensed financial institutions) organizations to support access to
finance in rural areas. These activities included (1) feasibility studies, (2) design and rollout
of new loan and savings products, and (3) design and rollout of technology-based systems.
Several microdeposit-taking institutions and savings and credit cooperative organizations
(SACCOs) were provided assistance for savings mobilization campaigns. In addition, other
forms of assistance were provided, such as training, technical assistance, and computers.

In addition to Rural SPEED, $2.2 million in FY 2006 funding was obligated for business
development assistance (noncredit) activities that, in part, included the following:

    •	 Agricultural Productivity Enhancement Program—This program aims to expand
       rural economic opportunities for and increase household income in the agriculture
       sector by increasing food and cash crop productivity and marketing.
1
  Included among USAID/Uganda’s microenterprise activities being carried out under Rural SPEED
was the Development Credit Authority (DCA) guarantee (FY 2005 funding was used for this activity).
Under this mechanism, USAID signs an agreement with a partnering bank and agrees to partially
guarantee individual loans made by the bank to borrowers meeting strict eligibility guidelines. DCAs
were not included as part of this audit because the Mission had been the subject of an Office of
Inspector General audit last year (Report No. 4-617-06-004-P, “Audit of USAID/Uganda’s
Development Credit Authority,” dated February 13, 2006).


                                                                                              2
    •	 Fisheries Investment for Sustainable Harvest—This activity focuses on jump-
       starting commercial development of aquaculture by providing the foundation for a
       sustainable aquaculture industry on proven feed-based technologies and best
       management practices.
    •	 Uganda Private Sector Dairy Industry Development Activity—This activity aims to
       encourage dairy farmers and producer groups to adopt improved animal genetics
       and farm management practices.
    •	 Productive Resource Investments for Managing the Environment—This project
       strives to conserve biodiversity by reducing threats to the forest, woodland, and
       aquatic ecosystems through economic opportunities and conflict resolution for rural
       communities.

This audit examined Rural SPEED microfinance activities for FY 2006 and did not focus on
SO7’s business development (noncredit) microenterprise activities.




A matoke (a type of banana) trader in the market in Kabwohe Town, Uganda. This trader has received several short-term
loans from a USAID subpartner microfinance institution to purchase matoke. Before having access to these short-term
loans, this trader did not have money to purchase matoke regularly. Source: Photograph taken in May 2007 by
RIG/Pretoria auditor.




                                                                                                                   3
AUDIT OBJECTIVES
This audit, which was included in the Office of Inspector General’s FY 2007 annual audit
plan, was conducted as part of a worldwide audit of USAID’s microfinance activities.

The audit was conducted to answer the following questions:

   •   Did USAID/Uganda implement its microenterprise activities efficiently?

   •   Did USAID/Uganda microenterprise activities achieve planned results?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      4
AUDIT FINDINGS

Did USAID/Uganda implement its microenterprise activities
efficiently?
Because of the nature of the activities being implemented, quantifiable measures were not
available to determine whether USAID/Uganda’s microenterprise activities were being
implemented efficiently. However, the microenterprise activities being conducted under
Rural SPEED were being implemented in a manner to achieve efficiency2 as defined in
USAID’s microenterprise results reporting to Congress. The Mission’s SO7 “Expanded
Sustainable Economic Opportunities for Rural Sector Growth” included a comprehensive
set of activities that benefit microenterprises in rural Uganda. The Rural SPEED Program
is geared toward increasing access to financial services in rural communities in Uganda
and, thereby, benefits microenterprises and the poor.

Because of the short-term nature of the Rural SPEED activities, which are implemented
using a series of 1-year grants over a period of 3 years with various subpartner institutions,
analysis of trends of financial ratios for the financial institutions who have received
assistance was not useful in measuring efficiency.3 Therefore, program efficiency as
described in the Microenterprise Results Reporting: Annual Report to Congress Fiscal
Year 2005 was the basis for determining whether activities had been established to help
achieve efficiency. The report stated that—

       By drawing on a diverse pool of partners with a wide range of skills,
       working across micro-, meso- and macroeconomic levels, and tailoring its
       assistance to specific local conditions, USAID ensures that it can
       implement comprehensive programs efficiently.

The Rural SPEED Program includes a diverse pool of subpartners, from commercial banks
(tier I institutions) to microfinance institutions and unlicensed SACCOs. In addition to
working closely with financial institutions, Rural SPEED has also worked closely with the
Ugandan government and donor community. For instance, in the case of the donor
community, Rural SPEED was able to identify a donor to provide capital for a new
financial product that Rural SPEED helped develop. Rural SPEED is reprogramming its
performance-monitoring tool, which will be distributed to financial institutions and the
donor community to produce financial reports in 2007. As part of this effort, the
monitoring tool is being customized to meet the needs of microfinance institutions,
microdeposit-taking institutions, and SACCOs. As described, $2.2 million was obligated in
FY 2006 for business development activities. (For specific activities, please see this report’s
background section.) These noncredit business development activities benefit individuals
(microentreprenuers) and producer groups. Once individual producers and producer
organizations are ready for financing, they are referred or linked to subpartners under the


2
  USAID/Uganda’s Rural SPEED activities represent more than 50 percent of the FY 2006
obligations for microenterprise activities.
3
  Program ratios that measure efficiency and productivity for Rural SPEED subpartners were not
among the key indicators used by the Mission to assess the success of the Mission’s
microenterprise activities.


                                                                                         5
Rural SPEED Program. Finally, the Rural SPEED activities complement the overall strategy
being implemented by the Mission’s SO7.

Did USAID/Uganda microenterprise activities achieve planned
results?
The audit team was unable to determine whether USAID/Uganda’s microenterprise
activities achieved planned results because of problems identified with definitions of key
program indicators. For three of the four program indicators reviewed, the indicator
definitions used in the Mission’s Performance Management Plan (PMP) differed from the
definitions used by the implementing partner in reporting data to USAID. Because the
definitions used by the subpartners were broader than those in the Mission’s PMP,
reported results were overstated compared with the results that should have been
reported using the PMP definitions.

USAID/Uganda reported meeting three of four planned results for key program indicators
in FY 2006 under the Rural SPEED Program. These indicators were developed from
microenterprise activities as well as rural financial sector activities. The reporting on
USAID/Uganda’s SO7 key indicators came from a broad range of reporting sources,
including banks, microdeposit-taking institutions, microfinance institutions, and
SACCOs.4 Targets were reportedly met for (1) number of new savers, (2) value of
savings, and (3) value of new loans. The target for number of new borrowers was not
met. However, as stated in the previous paragraph, problems with the key indicator
definitions examined in the audit resulted in our not being able to determine whether
planned microenterprise activities results had been achieved. (See Appendix III for the
reported indicators for FY 2006.)

Improved operations for microfinance institutions and microenterprises have occurred
because of USAID/Uganda’s assistance through the Rural SPEED Program.5 Following
are examples of these improved operations:

Microleasing—In an effort to promote leasing at the micro level to help small-business
owners, Rural SPEED developed a feasibility study and conducted pilot-testing of a
microlease for a subpartner microfinance institution. This has resulted in the first
microleasing product in Uganda. In addition, Rural SPEED identified a nongovernmental
organization to finance this leasing on a 50 percent matching basis with the financial
institution. According to an official from this microfinance institution, these leases have
been profitable after the first 4 months of operation and have resulted in new member
savings. The transportation sector has benefited greatly from microleasing. Many
motorcycles used to transport people and agricultural products have been made
available to previously unemployed persons or have allowed employees who were
working for others to start their own businesses. Other examples of the impact of the
leasing program are as follows:


4
  Program ratios that measure (1) sustainability and profitability, and (2) portfolio quality of
subpartner/microfinance institution (MFI) performance for Rural SPEED subgrantees were not
among the key indicators used by the Mission to assess the success of the Mission’s
microenterprise activities.
5
  Per a Mission official, other factors, such as overall growth in Uganda’s economy, have
contributed to the increases reported by USAID’s partners for their financial indicators.


                                                                                              6
       •	 An individual obtained a lease for a commercial oven for his wife, who baked
          cakes at their house. Without the commercial oven, 70 to 90 cakes were
          produced each week and sold to four retail outlets. With the leased oven,
          1,500 cakes are produced weekly and sold to 55 retail outlets, including the
          lessee’s own retail shop. The additional income has expanded operations
          with the purchase of a charcoal oven and hand mixer and has enabled the
          owner to hire employees.

                                              A bakery employee stands behind the commercial oven
                                              leased from the subpartner microfinance institution that
                                              received assistance from USAID/Uganda in developing
                                              microleasing. Source: Photograph taken in May 2007 in
                                              Kitigoma, Uganda, by an official from a microfinance
                                              institution.




       •	 A grain miller began operations in 1978. However, armed conflicts in Uganda
          resulted in the mill being vandalized and the grain stock looted. As a result,
          the miller had to cease milling in the early 1990s. In an effort to obtain capital
          for milling equipment to restart the mill, he tried unsuccessfully to sell his
          property. Under the microleasing program, he sold his equipment to the
          microfinance institution and then leased it back. The sale proceeds were
          used to repair the equipment and purchase grain stock. He is now an active
          miller and has hired several part-time employees.

                                                         A grain miller stands in front of milling
                                                         equipment in Kitigoma, Uganda. This
                                                         equipment was leased from a subpartner
                                                         microfinance    institution that  received
                                                         assistance from USAID/Uganda in developing
                                                         microleasing. Source: Photograph taken in
                                                         May 2007 by RIG/Pretoria Auditor.




Short-Term Loans—One of the new agricultural loans that Rural SPEED assisted in
developing, piloting, and launching was a rapid sales loan for a subpartner SACCO. This
loan is for short-term, small-value revolving trade loans with rapid turnover transactions
that are low risk and highly liquid. This loan was developed for bicycle traders who sold
matoke (a green banana grown in Uganda). Originally, 1-day loans were being used.
Now they are being made available for other agriculture and nonagriculture traders as 6


                                                                                                    7
day loans. An official from this SACCO said that the impact from these loans has been
substantial in terms of their operations. At the time the market survey was conducted for
this loan (around February 2006), their institution had the equivalent of $89,021 in
member savings with 3,020 members. At the time of the audit, member savings were
valued at the equivalent of $148,368 with 4,040 members.6 Among other benefits noted
by this institution was that the Rural SPEED Program provided organizational training,
enhancement of enterprise development, and rural savings promotion.

      •	 Two matoke traders who had received short-term loans were interviewed. One
         trader said that she had already obtained four short-term loans from this
         subpartner institution. Her business was doing much better because of the short-
         term loans. She had been a matoke trader before receiving the short-term loans,
         but previously did not have the necessary capital to make much money. The
         second trader has already obtained 10 short-term loans and noted that his
         business is doing well. He said that before obtaining the short-term loans he did
         not have sufficient funds to purchase matoke on a regular basis.

Savings Services—Rural SPEED assisted in developing and piloting savings services
for a subpartner microdeposit-taking institution. These savings services included a
broader strategy for the institution that included rebranding and other activities, such as
improving branch offices’ physical appearance, as well as conducting “client days” for
potential rural clients. According to an official from this institution, before the branding
campaign, it was a newly licensed institution and was struggling to get customers. He
noted that, after the branding campaign, the institution’s savings portfolio has been
growing. He attributes this growth to the increased public awareness. This official said
that without Rural SPEED, the institution would have experienced a decrease in total
savings. The official reported that the total value of savings before the branding
campaign on August 31, 2005, was $3,652,336. After the branding campaign on
December 31, 2006, the value of savings totaled $4,074,207. During this period,
significant increases were experienced and compulsory savings increased from
$352,206 to $1,428,337.7

According to this official, by the middle of 2006, the institution was seeing huge
increases in time deposits, and large institutions (which were new customers) were
opening savings accounts.

Notwithstanding these accomplishments, USAID/Uganda could strengthen its oversight
of microenterprise activities in some areas. These areas include finalizing a data quality
assessment, clarifying definitions of key financial indicators, and documenting site visits.

Data Quality Assessment
Report Needs to Be Finalized

     Summary: A data quality assessment (DQA) was performed in 2006 as required by
     Automated Directives System (ADS) 203. Although the DQA was performed in
     June 2006, only a draft has been provided to the Mission. A final report has not
     been issued because the Mission wanted comments from the major stakeholders

6
    This amount is based on a May 18, 2007, exchange rate of 1,685 Uganda shillings to US$1.
7
    These figures are based on a May 18, 2007, exchange rate of 1,685 Uganda shillings to US$1.


                                                                                                  8
  whose activities were also part of the DQA. At the time of the audit, one SO Team
  still had not provided comments. Without a final report, it is difficult to determine
  how issues raised in the draft report were resolved. As a result, it is difficult for the
  Mission to ensure that its implementing partner’s actions have mitigated the data
  quality issues that were identified during the assessment.

USAID’s ADS 203.3.5 recognizes the importance of data quality standards in managing
for results and ensuring credible reporting. This guidance states that—

       Data reported to USAID/Washington for Government Performance and
       Results Act (GPRA) reporting purposes or for reporting externally on
       Agency performance must have had a data quality assessment at some
       time within the three years before submission…. Operating units may
       choose to conduct data quality assessments more frequently if needed.

In June 2006, a DQA of the Mission’s SO7 for Rural SPEED activities was conducted.
Indicators included in the assessment were (1) number of new borrowers, (2) value of
new loans, (3) number of new savers, and (4) value of savings. The results of the DQA,
which included the results from two other Mission SO Teams, were sent in draft form to
the Mission on October 18, 2006, by the DQA contractor. As of the end of this fieldwork,
a final report had not yet been issued.

According to the Mission, a final DQA report had not been issued because the Mission
had wanted the major stakeholders (i.e., specific SO Teams and their partners) whose
activities were included in the DQA to comment on the report. According to a Mission
official, two of the three SO Teams that had been part of the DQA had provided
comments to the DQA contractor. One SO Team had not yet provided its comments
because of a busy schedule.

The Rural SPEED implementing partner provided comments on the DQA draft report on
December 11, 2006. According to the Mission, the Rural SPEED implementing partner
disagreed with non-data quality issues related to performance report quality and the
utilization of monitoring and evaluation findings. The DQA contractor agreed to review
the source documents from the review and indicated that these issues would be
addressed in the final report. In the absence of a final DQA report, it was difficult to
determine whether the issues addressed in the draft report had merit and how
outstanding issues would be resolved. In addition, without a final DQA, it was difficult for
the Mission to ensure that its implementing partners were able to mitigate data quality
issues.

The efforts of USAID/Uganda in having a contractor provide DQAs are noteworthy.
However, the benefits gained by having a DQA performed are significantly diminished
when a final report is not issued on a timely basis—in this case, a year elapsed without a
final report. As a result, the Office of Inspector General recommends the following course of
action to further strengthen the Mission’s DQA process:

   Recommendation No. 1: We recommend that USAID/Uganda obtain a finalized
   data quality assessment within 30 days of the issuance of this report.




                                                                                              9
Clarified Definitions Needed
for Indicators

  Summary: Three performance indicators do not comply with the requirements of
  ADS 203.3.4.2. Clarity is needed for the indicator definitions to meet the
  characteristics of good performance indicators. Subpartner financial institutions
  inconsistently reported the “number of new borrowers,” “new savers,” and “value of
  savings,” because these indicator definitions were not uniformly defined. This has
  made it difficult for the Mission to quantifiably measure the effectiveness of its
  outreach interventions. For instance, some of the reporting subpartner financial
  institutions had overstated their number of new borrowers and new savers.

ADS 203.3.4.2, “Characteristics of Good Performance Indicators,” states that
performance indicators should be unambiguous about what is being measured. In
addition to being precisely defined in the PMP, performance indicators should be useful
for the relevant level of management decision-making.

Some of the Rural SPEED subpartner financial institutions used different criteria to
report the number of new borrowers and new savers. For example, some were reporting
a client who obtained multiple loans as a new borrower for every new loan obtained.
Others were reporting new clients only once, regardless of the number of loans
obtained. Moreover, some were reporting a client who opened different savings
accounts as a new saver for every new account opened, whereas others were reporting
based on the first savings account opened.

Three of SO7’s four key indicators, namely “Number of New Borrowers,” “Number of
New Savers,” and “Value of Savings,” are not uniformly defined to collect and report data
as the Mission had intended. For example—

   •	 Number of new borrowers is defined in SO7’s PMP as a “New borrowers
      accessing credit services through financial service delivery points such as
      commercial banks, MFIs [microfinance institutions], exporters, processors,
      traders, input suppliers, producer associations, supported by USAID funded
      activities.” Rural SPEED’s implementing partner defined new borrowers similarly
      to the SO7 PMP. Added to this definition, however, they also included “As it is
      impractical to ensure uniqueness in the number of borrowers reported by
      financial institutions a new borrower is defined as a borrowing transaction, i.e.,
      the number of new loans.”

   •	 Number of new savers is defined in SO7’s PMP as “New savers accessing
      saving services through financial service delivery points such as commercial
      banks, MFIs, exporters, processors, traders, input suppliers, producer
      associations, supported by USAID funded activities.” Rural SPEED’s
      implementing partner defined the number of new savers similarly to the SO7
      PMP. Added to this definition, however, they also included “A saver is defined as
      a savings account that has a positive balance at the end of the reporting period,
      i.e., positive closing balance.”




                                                                                       10
   •	 Value of savings was defined in SO7’s PMP as “Total value of new savings held
      by clients of USAID supported commercial banks, MFIs, exporters, processors,
      traders, input suppliers, producer associations.” The implementing partner
      defined value of savings (not addressing “new”) as “total value of savings held by
      clients of financial institutions supported by Rural SPEED. This is a snap shot of
      total savings per reporting period.”

According to the implementing partner, the indicator data provided to the Mission were
consistent with the implementing partner’s indicator definitions described above. The
Mission officials stated that they were interested in obtaining the number of new
borrowers and new savers who had used the financial institutions for the first time as a
result of USAID interventions to strengthen the financial sector in rural areas. The
Mission further stated that it measures the impact of its outreach program by the
increase in the number of new clients who use financial services in the rural areas rather
than by the increase in the number of products used by the same client. The
implementing partner concurred that the definitions for the subject indicators needed
clarification.

According to a Mission official, this situation has made it difficult for the Mission to
quantifiably measure the effectiveness of its outreach interventions. For example, some
of the reporting financial institutions had overstated the number of “new borrowers” and
“new savers.”

Accordingly, the Office of Inspector General makes the following recommendation:

   Recommendation No. 2: We recommend that USAID/Uganda clarify the defined
   indicators “new savers,” “new borrowers,” and “value of savings” found in the
   Mission’s Performance Management Plan with the Rural Savings Promotion and
   Enhancement of Enterprise Development Program implementing partner so that
   these indicators reflect the Mission’s needs to establish an accurate level of its
   outreach interventions, including a methodology that supports the collection of
   this data.

Site Visits to Financial Institutions
Are Not Being Documented
Summary: Site visits carried out in FY 2006 were not documented as required by USAID
and Mission policies and procedures. The responsible cognizant technical officer (CTO)
cited too many work responsibilities and lack of sufficient time as reasons for not
preparing trip reports. As a result, it was difficult to determine whether the site visit
activity was appropriate to accomplish the necessary monitoring as required by the ADS
and the Mission Order.

According to USAID’s ADS 303.3, CTOs are responsible for monitoring and evaluating a
recipient and its performance during the award to facilitate the attainment of program
objectives. Required CTO action includes contact through site visits and liaison with the
recipient, as well as reviewing and analyzing performance and financial reports. CTO
responsibilities are further defined in the CTO Checklist found in USAID’s Guide Book
for Managers and Cognizant Technical Officers on Acquisition and Assistance
(November 1998). Among the CTO’s responsibilities are the following:


                                                                                        11
   •	 Maintaining reasonable contact with the contractors to become aware of and gain
      an understanding of its problems and work schedules.

   •	 Documenting significant actions, conversations, and so on as they occur.

   •	 Establishing and maintaining a separate file for documents and correspondence
      pertaining to the contract.

Furthermore, as stated in USAID/Uganda’s Mission Order No. 200-6A, dated January 2,
2002, a trip report must be written upon completion of each site visit. This report must
capture factual and objective assessment of the progress of the activities in relation to
the benchmarks. Moreover, the Mission Order includes a form that has been developed
to report on site visits.

Although site visits to monitor the activities of the subpartner financial institutions were
carried out by the Mission in FY 2006, documentation of these monitoring efforts was
lacking. The responsible CTO noted having too many work responsibilities to allow her
sufficient time to prepare trip reports.

Without trip reports, it was difficult to determine whether the site visit activity was
appropriate to accomplish the necessary monitoring required by the ADS and the
Mission Order. Furthermore, it is important to document significant events and
observations that may have influenced managerial decisions affecting the program. To
enable the Mission to capture significant events, observations, and the decisions made
thereafter, the Office of Inspector General makes the following recommendation:

   Recommendation No. 3: We recommend that USAID/Uganda communicate to
   Mission staff the importance of, requirement for, and the mechanism for properly
   documenting site visits.




                                                                                         12
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Uganda concurred with all three
recommendations. The Mission described the actions taken and planned to address our
concerns. The Mission’s comments and our evaluations to those comments are
summarized below.
In response to Recommendation No. 1, concerning the finalization of the data quality
assessment (DQA) within 30 days of the issuance of this report, the Mission concurred.
A final DQA report was issued on June 20, 2007. A copy of this report was provided in
the Mission’s comments. Therefore, final action has been taken on this recommendation
upon the issuance of this report.
Recommendation No. 2 recommended that USAID/Uganda clarify the defined indicators
to reflect the Mission’s needs to establish an accurate level of its outreach interventions,
including a methodology to support the collection of these data. The Mission concurred
with this recommendation. It noted that the language and definitions in the recently
released Microfinance Institution (MFI) Performance Monitoring Tool (version 2007) are
“in harmony with the Economic Growth SO7 Performance Monitoring Plan requirements
and represent an accurate level of its outreach interventions, including a robust
methodology that supports the collection of this data.” The Mission has provided a copy
of this monitoring tool. Therefore, final action has been taken on this recommendation
upon the issuance of this report.
Recommendation No. 3 recommended that the Mission communicate to its staff the
importance of, requirement for, and the mechanism for properly documenting site visits.
USAID/Uganda concurred with this recommendation. In response, the Mission noted
that it would maintain in its program files copies of site visit schedules, site visit reports,
and biennial reviews. It also noted that the program office would monitor and ensure
staff compliance with Mission Order No. 200-6A (dated January 2, 2002) and report
progress in the Mission FY 2008 Risk Assessment. Although these actions will help
strengthen the Mission’s oversight of documenting site visits, they do not address how
the Mission will communicate to its staff the need to properly document site visits.
Because the Mission’s need to communicate these requirements is the focus of
Recommendation No. 3, no management decision has been reached.
The Mission’s comments are included in their entirety in Appendix II.




                                                                                            13
                                                                              APPENDIX I



SCOPE AND METHODOLOGY

Scope
The Regional Inspector General (RIG)/Pretoria conducted this audit in accordance with
the U.S. Government’s generally accepted auditing standards. Fieldwork was conducted
in Uganda from April 24, 2007, through June 13, 2007, at USAID/Uganda, Kabwohe
Town, Kampala, Kitigoma, and Lyantonde.

This audit was conducted as part of a series of audits conducted by the Office of
Inspector General. The objectives of the audit were to determine (1) whether
USAID/Uganda implemented its microenterprise activities efficiently and (2) whether
USAID/Uganda microenterprise activities achieved planned results. The scope of this
audit included USAID/Uganda’s microenterprise activities carried out during fiscal year
(FY) 2006. From the total $4.6 million in microenterprise activities for FY 2006, the
activities selected were chosen from the $2.5 million obligated toward the
microenterprise finance program, which represented more than 50 percent of the FY
2006 obligations for microenterprise activities. Rural Savings Promotion and
Enhancement of Enterprise Development (Rural SPEED) was the Mission’s program
used for these selected activities.

Although Rural SPEED carried out activities under the Development Credit Authority
(DCA) guarantee (using funds obligated in FY 2005), these activities were not included
in the scope of this audit. These activities were not included because the Mission had
been the subject of a RIG/Pretoria audit of its DCA program last year. Furthermore, this
audit did not include Business Development Services for microenterprise activities,
because the focus of this audit was on financial services supporting microenterprise
activities.

In conducting this audit, the audit team assessed the effectiveness of internal controls
related to the implementation of this program, such as the following: (1) adherence of the
implementing partner to the contract (including deliverables), (2) selection of the eligible
subpartners for strategic activity funds, (3) the reporting process for selected key
indictors by the subpartners to the implementing partner, and (4) quality assessments
and corrective measures taken to address the deficiencies identified. Furthermore, the
audit team reviewed the Mission’s annual self-assessment of internal control in
accordance with the Federal Managers’ Financial Integrity Act of 1982 for FY 2006.

Methodology
To answer the audit objectives, the audit team met with USAID/Uganda staff for
Strategic Objective (SO) 7 (“Expanded Sustainable Economic Opportunities for Rural
Sector Growth”). The staff were responsible for the Mission’s microenterprise activities
and for the Rural SPEED implementing partner. The audit team reviewed the
implementing partner’s FY 2006 annual report and, with collaboration from
USAID/Uganda, selected 4 of the 21 reported indicators for the purpose of this audit.
The four key indicators used by the Mission to assess the success of the program were
(1) number of new borrowers, (2) value of new loans, (3) number of new savers, and (4)



                                                                                     14 

                                                                                         APPENDIX II


value of savings. The audit team compared the numbers reported for the subject
indicators against the established targets to determine whether they attained the
targets.8

The team then selected 3 of the implementing partner’s 14 subpartners. These
subpartners had contributed to the four indicators described above for the fieldwork. The
selection criteria required the subpartners to come from financial institutions within tier III
(microdeposit-taking finance institutions) and tier IV (microfinance institutions)
organizations that had received USAID assistance in FY 2006. The amount of grants
given to the three selected subpartners totaled $134,866, which was 14 percent of the
total of $972,129 disbursed to all subpartners for FY 2006.

The audit team interviewed officials in the selected subpartner institutions about the
extent and impact of the USAID program on their respective financial institutions. The
audit team asked about the reporting processes for the selected indicators for the
implementing partner in Kampala, reviewed the supporting documents for the indicator
data reported, and obtained a sample of beneficiaries for the matoke loans and
microleases. The audit team interviewed microentrepreneurs to determine the impact of
these new products in improving their livelihood and the challenges that need to be
addressed.




8
  As stated previously, the Mission did not use program ratios that measured (1) efficiency and
productivity, (2) sustainability and profitability, and (3) portfolio quality of subpartner/microfinance
institution performance as key indicators in assessing the success of the Mission’s
microenterprise activities.


                                                                                                      15
                                                                                    APPENDIX II



  MANAGEMENT COMMENTS 



  MEMORANDUM
  TO:                 Acting Regional Inspector General/Pretoria, Matthew Rathgeber

  FROM:               Debbie Grieser, Acting Mission Director, USAID/Uganda /s/

  SUBJECT:            USAID/Uganda Comments on the July 10, 2007 Draft Audit of
                      USAID/Uganda's Microenterprise Activities (Report No. 4-617-07
                      XXX-P)

  DATE:               August 10, 2007
                      ___________________________________________________

  The Mission has reviewed the draft copy of the RIG Audit Report of USAID/Uganda's
  Microenterprise activities and concurs with all three recommendations. The Mission has
  initiated actions to address these recommendations, submits supporting documentation
  for closure.

  Mission’s response to the 3 recommendations

  Recommendation No. 1: We recommend that USAID/Uganda obtain a finalized
  data quality assessment within 30 days of the issuance of this report.

  Mission Response: Mission concurs with this recommendation.

  The Mission has followed up with the contractor of its Monitoring and Evaluation
  Management Services (MEMS) project, Management Systems International (MSI) under
  contract GS-23F-8012H, to incorporate comments received from Strategic Objective
  (SO) Teams and implementing partners of the three strategic objectives assessed -
  Economic Growth, Investing in People and Democracy and Governance. The final DQA
  report was issued on June 20, 2007 and is electronically attached.




U.S. Agency for International Development                             International Address:
US Mission Compound – South Wing                                      USAID/Uganda
1577 Ggaba Road, Nsambya                    Tel: (256 - 41) 306-001   DOS/USAID, 2190 Kampala Place
P.O. Box 7856                               Fax: (256 - 41) 306-661   Washington DC 20521-2190
Kampala                                     http://uganda.usaid.gov   Tel: 202-216-6234




                                                                                                 16
                                                                             APPENDIX II


With the completion of the FY 2006 DQA, Mission requests that RIG/Pretoria close this
recommendation.

   •	 However, we wish to make the following clarifications:The Data Quality report
      referred to above covers all the Mission’s Implementing Partners except those
      that are exclusively implementing HIV/AIDS activities. Data Quality Assessments
      for these activities are carried out by the Monitoring and Evaluation of
      Emergency Plan Progress (MEEPP) contract 617-C-00-05-00001-00, which is
      mandated to provide monitoring and evaluation technical assistance to the
      United States/Uganda Emergency Plan Team (EPT).

   •	 We refer to your finding on page 9 of your draft report that states that “The Rural
      Speed contractor provided comments on December 11, 2006, which identified
      several areas where they did not agree with the DQA draft report. The DQA
      contractor agreed to review the source documents from the review and indicated
      that these issues would be addressed in the final report. In the absence of a final
      report, it is difficult to determine if the issues that were addressed in the draft
      report had any merit. Some issues had been challenged by Rural Speed’s
      contractor. Without a final report it is not known how the outstanding data quality
      issues were resolved”.

   •	 Findings challenged by the Rural SPEED contractor included non–data quality
      issues. Annually, MEMS carries out a wider assessment of our Implementing
      Partners monitoring and evaluation (M&E) performance and capacity at the same
      time that it conducts data quality assessments. The assessment focuses on
      quality of performance reports, performance monitoring plan (PMP) quality
      (including indicator and data quality), utilization of monitoring and evaluation
      (M&E) data, dissemination of M&E findings and M&E capacity.

       The non– data quality issues that the Rural SPEED Contactor disagreed with
       were related to performance report quality and utilization of monitoring and
       evaluation (M&E) findings. We wish to point out that we review both the draft
       Activity Report and Data Quality Assessment report with our implementing
       partners at the same time (the review of Rural SPEED Activity Report Card and
       Data Quality Assessment findings was held on December 11, 2006, the date you
       mention in your draft report). By the time your Audit took place, the FY 2006
       Activity Cards had also not yet been finalized. They have since been finalized
       and the final Activity Report Card for Rural SPEED is attached. The
       actions/recommendations matrix arising from the December 11, 2006, review
       meeting between MEMS and Rural SPEED is also attached.

Recommendation No. 2: We recommend that USAID/Uganda clarify the defined
indicators “new savers”, “new borrowers”, “value of savings” found in the Mission’s
performance management plan with the Rural SPEED contractor in order for these
indicators to reflect the Mission’s needs on establishing an accurate level of its outreach
interventions, including a methodology that supports the collection of this data.

Mission Response: Mission concurs with this recommendation.

To harmonize the language and definitions of indicators that measure Microfinance
Institution (MFI) portfolio and outreach, USAID/Rural SPEED worked with the


                                                                                        17
                                                                             APPENDIX II


Association of Microfinance Institutions of Uganda to include revisions to the
Microfinance Performance Monitoring Tool (PMT) version 2004 that edited language
under fields: A3 - Number of clients taking first loan (during the period), A21 - Value of
compulsory savings (end of period), A22 - Number of voluntary savers and A23 - Value
of voluntary savings (see electronic version attached).

The language and definitions in the revised MFI PMT version 2007 are currently in
harmony with the Economic Growth SO7 PMP requirements and represent an accurate
level of its outreach interventions, including a robust methodology that supports the
collection of this data.

Mission requests RIG/Pretoria close this recommendation given the release and
institution of the MFI Performance Monitoring Tool version 2007 version.


Recommendation No. 3: We recommend that USAID/Uganda communicate to Mission
staff the importance of, requirement for, and the mechanism for properly documenting
site visits.

Mission Response: Mission concurs with this recommendation.

Electronic and paper copies of summaries of the site visit schedule, site visit reports and
biennial reviews will be maintained in the program files.

Program Office shall work to monitor and ensure staff compliance with Mission Order
200-6A dated January 2, 2002 (attached) and will report progress in the Mission’s FY
2008 Risk Assessment (FMFIA).



Attachments:
(1)   USAID/Uganda Performance Data Quality Report, June 20, 2006
(2)   Microfinance Performance Monitoring Tool, 2007
(3)   Mission Order No. 200-6A
(4)   MEMS SO7 FY06 Activity Report Cards, June 20, 2007
(5)   Rural SPEED Report Card




                                                                                        18
                                                                                  APPENDIX III



Selected Key Indicators for
Fiscal Year (FY) 2006
    Indicator    Target for FY    Revised Targets        Actual Results     Attained    Attained
      Name         2006 per        for FY 200610         for FY 200611      against     against
                   Contract                                                   Mod       Revised
                 Modification                                                No. 3      Targets
                    No. 39                                                  Targets
    Number      25,000            33,713               24,027               96%         71%
    of new
    borrowers
    Value     5,341,246           17,980,309           40,472,407           758%        225%
    of new
    loans ($)
    Number    62,000              135,388              173,219              279%        128%
    of new
    savers
    Value of  22,433,234          144,343,855          142,127,527          634%        98%
    savings
    ($)
Note: The value of new loans and value of savings are converted to dollars based on a May 18,
2007, exchange rate of 1,685 Uganda shillings to US$1.




9
   Because of budget cuts experienced by USAID/Uganda’s Strategic Objective (SO) 7 on June 1,
2006, the statement of work was revised to incorporate yearly and life-of-project activity
performance targets (illustrated in contract modification no. 3). The revised amounts are
illustrated in the table above.
10
    According to Mission staff, when the actual numbers were reported for the indicators, the
targets established in contract modification no. 3 were conservative. As a result, the Mission and
the implementing partner informally agreed on revised numbers, as stated in the revised targets,
to establish more realistic targets. That agreement was not formalized in writing. In evaluating
actual results versus targets, the audit team used the revised targets, because they were used in
the Rural SPEED FY 2006 annual report.
11
    As stated previously, the audit team was not able to determine whether USAID/Uganda’s
microenterprise activities achieved planned results because of problems that were identified with
definitions for three of four key program indicators.


                                                                                               19
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

             Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
